Program Improvements Needed
Within the SEC’s Division of
Enforcement




                      September 29, 2009
                          Report No. 467
Program Improvements Needed Within the
SEC’s Division of Enforcement
                              Executive Summary
Background: On December 11, 2008, the Securities and Exchange
Commission (SEC) charged Bernard L. Madoff (Madoff) with securities fraud for
a multi-billion dollar Ponzi scheme that he perpetrated on advisory clients of his
firm. Subsequently, the Commission learned that credible and specific
allegations regarding Madoff’s financial wrongdoing, going back to at least 1999,
were repeatedly brought to the attention of SEC staff but were never
recommended to the Commission for action.

As a result, former Chairman Christopher Cox requested that the Office of
Inspector General (OIG) conduct an investigation into the past allegations
regarding Madoff and his firm and the reasons these allegations were not found
to be credible by the Commission.

In June 2009, as a result of issues identified during this ongoing OIG
investigation, the OIG launched a survey questionnaire to the Division of
Enforcement (Enforcement) staff and management in headquarters as well as
the regional offices. The questionnaire was designed to obtain feedback from
Enforcement staff on topics such as allocation of resources, performance
measurement, case management procedures, communication, adequacy of
policies and procedures, employee morale, and management efficiency and
effectiveness.

Objective: The objective of our review was to identify systemic issues that
would prevent Enforcement from accomplishing its mission to enforce the
securities laws and protect investors and determine from discussions with staff
and supervisors which programmatic improvements are needed.

Prior OIG Work: This report contains information from the OIG’s Report of
Investigation, Report No. 509, Investigation of Failure of the SEC to Uncover
Bernard Madoff’s Ponzi Scheme, dated August 31, 2009, which described in
detail the factual circumstances surrounding the Madoff-related complaints
received by the SEC and the SEC’s examination and investigations of Madoff
over the years.

Results: The review found that there are several program improvements
needed within Enforcement with regard to complaint handling processes,
fostering of relationships inside and outside the Division, verification of
Program Improvements Needed Within the Division of Enforcement     September 29, 2009
Report No. 467
                                             Page ii
information with industry experts outside the Commission, timely handling of
administrative matters related to opening and closing investigations, effective
supervision over investigations, communication of program priorities, and case
handling processes.

Specifically, we found that Enforcement staff lacked adequate guidance on how
to appropriately analyze complaints. As a result, Enforcement staff did not
conduct a thorough review of a complaint brought to their attention in 2001
regarding Madoff. In addition, we found that Enforcement staff assigned to
investigate Madoff were inexperienced and the investigation suffered from a lack
of supervision which had consequences for the investigation. We also found that
Enforcement staff did not always exercise due diligence in their handling of
critical information regarding Madoff. As a result, we found that Enforcement
staff did not sufficiently review a complaint that included approximately 30 red
flags indicating that Madoff was operating a Ponzi scheme. Further,
Enforcement staff investigating Madoff did not always seek assistance from other
offices and divisions as needed during its investigation. As a result, Enforcement
staff had difficulty understanding key aspects of Madoff’s operations, including
his purported trading overseas. Additionally, Enforcement staff working on the
Madoff investigation failed to verify information provided by Madoff with
independent third-party sources, a critical step in order to determine whether
Madoff was actually engaged in trading. Furthermore, Enforcement staff did not
adequately evaluate information received by the SEC while the Madoff
investigation was inactive pending closure. Additionally, we found there were
delays in completing administrative tasks related to opening a matter under
inquiry on Madoff, as well as closing the investigation.

In addition, based on a June 2009 OIG survey of management effectiveness in
Enforcement, we found that a large number of Enforcement staff have concerns
regarding working relationships within Enforcement, communication of program
priorities, and case handling processes. Additionally, staff expressed that they
did not always know where to find information regarding impartiality in the
performance of their duties.

Summary of Recommendations:

To strengthen management controls, Enforcement should:

        (1) Establish formal guidance for evaluating various types of complaints
        (e.g., Ponzi schemes) and train appropriate staff on the use of the
        guidance. The guidance should address the necessary steps and key
        information required to be collected when conducting preliminary inquiries
        of various types of complaints, specify what information should be
        documented, and list whom should be consulted in other offices within the


Program Improvements Needed Within the Division of Enforcement     September 29, 2009
Report No. 467
                                             Page iii
        SEC with relevant expertise in various subject matters and other pertinent
        data.

        (2) Ensure the SEC’s tip and complaint handling system provides for data
        capture of relevant information relating to the vetting process to document
        why a complaint was or was not acted upon and who made that
        determination.

        (3) Require tips and complaints to be reviewed by at least two individuals
        experienced in the subject matter prior to deciding not to take further
        action.

        (4) Establish guidance to require that all complaints that appear on the
        surface to be credible and compelling be probed further by in-depth
        interviews with the sources to assess the complaints validity and to
        determine what issues need to be investigated. Such guidance should
        also require that staff obtain all relevant documentation related to such
        complaints.

        (5) Provide training to staff to ensure they are aware of the guidelines
        contained in Section 3.2.5 of the Enforcement Manual and Title 17 of the
        Code of Federal Regulations, Section 202.10 for obtaining information
        from media sources.

        (6) Annually review and test the effectiveness of its policies and
        procedures with regard to its new tip and complaint handling system.
        Enforcement should also modify these policies and procedures, where
        needed, to ensure adherence and adequacy.

        (7) Put in place procedures to ensure that investigations are assigned to
        teams where at least one individual on the team has specific and sufficient
        knowledge of the subject matter (e.g. Ponzi schemes) and the team has
        access to at least one additional individual who also has such expertise or
        knowledge.

        (8)Train staff on what resources and information is available from the
        national specialized units and when and how assistance from these units
        should be requested.

        (9) Make it mandatory that planning memoranda be prepared during an
        investigation and that the plan includes a section identifying what type of
        expertise or assistance is needed from others within and outside the
        Commission. The plan should also be reviewed and approved by senior
        Enforcement personnel.


Program Improvements Needed Within the Division of Enforcement       September 29, 2009
Report No. 467
                                             Page iv
        (10) Require that after the planning memorandum is drafted, it is circulated
        to all team members assigned to the investigation, and all team members
        then should meet to discuss the investigation approach, methodology and
        any concerns team members wish to raise.

        (11) Establish procedures so that junior-level Enforcement attorneys who
        are having difficulty with obtaining timely assistance from outside offices
        are able to escalate their concerns to senior-level management within
        Enforcement.

        (12) Conduct periodic internal reviews of any newly implemented policies
        and procedures related to information sharing with Divisions and Offices
        outside of Enforcement to ensure they are operating efficiently and
        effectively and necessary changes are made.

        (13) Require that the planning memorandum and associated scope,
        methodology and timeframes be routinely reviewed by an investigator’s
        immediate supervisor to ensure investigations remain on track and
        determine whether adjustments in scope, etc. are necessary.

        (14) Ensure that sufficient resources, both supervisory and support, are
        dedicated to investigations upfront to provide for adequate and thorough
        supervision of cases and effective handling of the investigations.

        (15) Put in place policies and procedures or training mechanisms to
        ensure staff have an understanding of what types of information should be
        validated during investigations with independent parties such as the
        Financial Industry Regulatory Authority, Depository Trust Company, and
        Chicago Board Options Exchange.

        (16) Include in its complaint handling guidance proper procedures for
        ensuring complaints received even if an investigation is pending closure,
        are properly vetted.

        (17) Conduct periodic internal reviews to ensure that MUIs are opened in
        accordance with any newly developed Commission guidance and examine
        ways to streamline the case closing process. Enforcement should also
        ensure staff have adequate time in which to complete these types of
        administrative tasks.

        (18) Put in place a process to periodically remind staff of their
        responsibilities regarding impartiality in the performance of official duties
        and instruct staff where they can find additional information regarding
        impartiality.


Program Improvements Needed Within the Division of Enforcement         September 29, 2009
Report No. 467
                                             Page v
        (19) Establish or utilize an existing working group to analyze the OIG
        survey information regarding staff concerns over communication of
        program priorities and make recommended improvements to the Director
        of Enforcement.

        (20) Establish or utilize an existing working group to analyze the OIG
        survey information regarding staff concerns regarding case handling
        procedures within Enforcement and make recommended improvements to
        the Director of Enforcement.

        (21) Establish or utilize an existing working group to analyze the OIG
        survey information regarding staff concerns over working relationships
        within Enforcement and make recommended improvements to the Director
        of Enforcement.




Program Improvements Needed Within the Division of Enforcement   September 29, 2009
Report No. 467
                                             Page vi
Table of Contents
Executive Summary ............................................................................................... ii

Table of Contents ...................................................................................................vii

Background and Objective .................................................................................... 1

Findings and Recommendations .......................................................................... 3

         Finding 1: Enforcement Staff Lacked Adequate Guidance on How to
            Appropriately Analyze Complaints ................................................................ 4
                      Recommendation 1....................................................................... 4
                      Recommendation 2....................................................................... 5
                      Recommendation 3....................................................................... 5

         Finding 2: Enforcement Staff Did Not Always Exercise Due Diligence in
            Their Handling of Critical Information Regarding Madoff .............................. 5
                      Recommendation 4....................................................................... 6
                      Recommendation 5....................................................................... 6
                      Recommendation 6....................................................................... 7

         Finding 3: Enforcement Staff Assigned to Investigate the Madoff
            Complaint Were Inexperienced in Investigating Ponzi Schemes 8
                      Recommendation 7....................................................................... 8
                      Recommendation 8....................................................................... 8
                      Recommendation 9....................................................................... 9
                      Recommendation 10..................................................................... 9

         Finding 4: Enforcement Staff Investigating Madoff Did Not Always Seek
            Assistance From Other Offices and Divisions as Needed............................. 9
                      Recommendation 11................................................................... 11
                      Recommendation 12................................................................... 12

         Finding 5: The Madoff Investigation Suffered From a Lack of Supervision ...... 12
                      Recommendation 13................................................................... 13
                      Recommendation 14................................................................... 13

         Finding 6: Enforcement Staff Failed to Verify Information Provided by
            Madoff with Independent Sources .............................................................. 14
                      Recommendation 15................................................................... 14




Program Improvements Needed Within the Division of Enforcement                             September 29, 2009
Report No. 467
                                                  Page vii
        Finding 7: Enforcement Staff Did Not Adequately Evaluate Additional
           Information Received by the SEC While the Madoff Investigation Was
           Inactive Pending Official Closure ................................................................ 14
                     Recommendation 16................................................................... 15

        Finding 8: Enforcement Staff Did Not Timely Complete Administrative
           Tasks Associated with Opening and Closing the Madoff Investigation ....... 15
                     Recommendation 17................................................................... 16

        Finding 9: Other Opportunities for Programmatic Improvements within
           Enforcement ............................................................................................... 17

                 Finding 9A: Enforcement Staff Are Not Always Aware of Where to
                    Find Information Regarding Impartiality and a Troubling Number
                    Have Been In Situations They Felt Lacked Impartiality .................... 17
                        Recommendation 18................................................................... 19

                 Finding 9B: Program Priorities Are Not Always Clearly Established
                    and Communicated to Enforcement Staff ........................................ 19
                        Recommendation 19................................................................... 22

                 Finding 9C: Case Handling Processes Could Be Improved ................. 22
                        Recommendation 20................................................................... 25

                 Finding 9D: Enforcement Staff Expressed Concern Over Working
                    Relationships within the Division ...................................................... 25
                        Recommendation 21................................................................... 27

Appendices
    Appendix I: Acronyms. ..................................................................................... 28
    Appendix II: Scope and Methodology............................................................... 29
    Appendix III: List of Recommendations ............................................................ 30
    Appendix IV: Management Comments............................................................. 33
    Appendix V: OIG Response to Management’s Comments............................... 34




Program Improvements Needed Within the Division of Enforcement                             September 29, 2009
Report No. 467
                                                  Page viii
                 Background and Objective

Background
The primary mission of the Division of Enforcement (Enforcement) is to
investigate and prosecute violations of the federal securities laws. These
violations involve conduct ranging from fraudulent offering of securities, market
manipulation, financial statement fraud and insider trading to violative activities of
regulated entities such as exchanges, broker-dealers, investment companies,
and investment advisers. This program currently is administered by
approximately 1,200 enforcement staff members in the Commission’s
headquarters and eleven regional offices.

The Commission reported in its 2008 Performance and Accountability Report
that, in enforcing the securities laws, the SEC focuses on early detection of
potential problems or issues in the securities markets, preventing violations of
securities laws and sanctioning violators. For FY 2008, the SEC reported that it
focused more than half its resources toward achieving this goal, which totaled
approximately 2,300 staff (including 1,169 Enforcement staff) and more than
$595 million in funding.

On December 11, 2008, the Securities and Exchange Commission (SEC)
charged Bernard L. Madoff (Madoff) with securities fraud for a multi-billion dollar
Ponzi scheme that he perpetrated on advisory clients of his firm. Subsequently,
the Commission learned that credible and specific allegations regarding Madoff’s
financial wrongdoing, going back to at least 1999, were repeatedly brought to the
attention of SEC staff but were never recommended to the Commission for
action. As a result, former Chairman Christopher Cox requested that the Office
of Inspector General (OIG) conduct an investigation into the past allegations
regarding Madoff and his firm and the reasons these allegations were not found
to be credible by the Commission. In June 2009, as a result of issues identified
during this ongoing OIG investigation, the OIG launched a survey questionnaire
to Enforcement staff and management in headquarters as well as the regional
offices. The questionnaire was designed to obtain feedback from Enforcement
staff on topics such as allocation of resources, performance measurement, case
management procedures, communication, adequacy of policies and procedures,
employee morale, and management efficiency and effectiveness.


Objective
Based on the key issues identified in the OIG’s Madoff investigation, together
with feedback obtained from Enforcement staff regarding where improvements
are needed in the Enforcement program, we identified potential systemic issues
that may prevent Enforcement from efficiently and effectively accomplishing its
mission of enforcing the securities law and protect investors.




Program Improvements Needed Within the Division of Enforcement    September 29, 2009
Report No. 467
                                             Page 2
              Findings and Recommendations

Based on a review of the SEC’s handling of the Madoff investigation and a June
2009 OIG survey of management effectiveness in Enforcement, we identified
several areas within Enforcement that are problematic with regard to complaint
handling processes, fostering of relationships inside and outside the Division,
verification of information with industry experts outside the Commission, resource
issues, timely handling of administrative matters related to opening and closing
investigations, effective supervision over investigations, communication of
program priorities, and case handling processes. More specifically, we found
that:

        1) Enforcement staff lacked adequate guidance on how to appropriately
        analyze complaints;
        2) Enforcement staff did not always exercise due diligence in its handling
        of critical information regarding Madoff;
        3) Enforcement staff assigned to investigate the Madoff complaint were
        inexperienced in investigating Ponzi schemes;
        4) Enforcement staff investigating Madoff did not always seek assistance
        from other offices and divisions as needed;
        5) The Enforcement Madoff investigation suffered from a lack of
        supervision;
        6) Enforcement staff failed to verify information provided by Madoff with
        independent sources;
        7) Enforcement staff did not adequately evaluate additional information
        received by the SEC while the Enforcement Madoff investigation was
        active pending closure;
        8) Enforcement staff did not timely open or close its Madoff investigation;
        9) Program priorities have not always been clearly established and
        communicated to Enforcement staff;
        10) Case handling processes can be improved;
        11) Enforcement staff are not always aware of where to find information
        regarding impartiality and many have been in situations they felt lack
        impartiality; and
        12) Enforcement staff expressed concern over working relationships within
        the Division.

This review recommends that Enforcement implement additional management
controls to address the deficiencies identified to help ensure the Enforcement
program efficiently and effectively fulfills its mission.

Program Improvements Needed Within the Division of Enforcement     September 29, 2009
Report No. 467
                                             Page 3
Finding 1: Enforcement Staff Lacked
Adequate Guidance on How to Appropriately
Analyze Complaints
        We found that Enforcement staff did not conduct a thorough
        review of a complaint brought to their attention regarding
        Madoff.

The OIG Madoff investigation found that in response to a 2001 complaint
regarding Madoff from Harry Markopolos (Markopolos), an industry source, which
was forwarded to the New York Regional Office (NERO) from the Boston District
Office (BDO), NERO made an expedient decision not to investigate the
complaint. NERO’s Regional Director assigned the complaint to an Assistant
Regional Director for initial inquiry. Despite the compelling circumstantial
evidence in the complaint, the Assistant Regional Director e-mailed the Regional
Director a day later, after having performed minimal follow-up and stated that she
did not think NERO should pursue the matter further. Later, the Assistant
Regional Director testified that she would have needed to consult with someone
with greater options expertise to determine the full extent to which the complaint
could be investigated. She also testified that she could not recall if she had
consulted anyone, but had hoped she did.

This situation illustrates the need for guidance and training on appropriate
complaint handling procedures. In particular, we found that no formal guidance
exists within Enforcement to assist staff in determining what information is
needed to adequately assess the legitimacy of a complaint, including for
example, what specific information should be gathered related to a potential
Ponzi scheme. Additionally, there was no readily available information regarding
what procedures the Assistant Regional Director performed in reviewing the
complaint and whom she may have consulted in making her decision not to
pursue the matter further.

        Recommendation 1:

        Enforcement should establish formal guidance for evaluating various types
        of complaints (e.g., Ponzi schemes) and train appropriate staff on the use
        of the guidance. The guidance should address the necessary steps and
        key information required to be collected when conducting preliminary
        inquiries of various types of complaints, specify what information should
        be documented, and list whom should be consulted in other offices within
        the SEC with relevant expertise in various subject matters and other
        pertinent data.

Program Improvements Needed Within the Division of Enforcement    September 29, 2009
Report No. 467
                                             Page 4
        Recommendation 2:

        Enforcement should ensure the SEC’s tip and complaint handling system
        provides for data capture of relevant information relating to the vetting
        process to document why a complaint was or was not acted upon and who
        made that determination.

        Recommendation 3:

        Enforcement should require tips and complaints to be reviewed by at least
        two individuals experienced in the subject matter prior to deciding not to
        take further action.


Finding 2: Enforcement Staff Did Not Always
Exercise Due Diligence in Their Handling of
Critical Information Regarding Madoff
        We found that the Enforcement staff did not sufficiently
        review the evidence that Markopolos provided them. Further,
        Enforcement staff rebuffed Markopolos’ offers of additional
        information related to his complaint.

The OIG Madoff investigation found in 2005, Markopolos provided the NERO
Enforcement staff with a detailed complaint that included approximately 30 red
flags indicating that Madoff was operating a Ponzi scheme, a scenario he
described as “highly likely.” We found that NERO Enforcement staff did not
sufficiently review the evidence that Markopolos provided them and discounted
much of the information in his complaint because Markopolos was not a Madoff
employee or an investor. We also found that Enforcement staff questioned
Markopolos’ motives as being a competitor of Madoff’s in the industry.

Additionally, we found that in December 2005, Markopolos e-mailed the Branch
Chief assigned to the Madoff investigation stating that he was willing to meet with
Enforcement staff and share his observations regarding Madoff’s operations and
provide them additional information and materials relevant to his complaint. He
also made suggestions regarding sources within the media who would be willing
to share information with the Enforcement staff as well. The Enforcement staff
failed to adequately follow-up with Markopolos and obtain the information he was
seeking to provide.




Program Improvements Needed Within the Division of Enforcement     September 29, 2009
Report No. 467
                                             Page 5
This situation demonstrates a lack of due diligence in the handling of critical
information regarding Madoff and the need for additional policies, procedures
and training in Enforcement to ensure these types of issues do not reoccur.

The SEC has recently taken steps to improve its ability to handle tips and
complaints. In February 2009, the SEC retained the Center for Enterprise
Modernization to begin work on a comprehensive review of internal procedures
to evaluate tips, complaints, and referrals. The OIG has learned that the project
is intended to be significant in scope and has not yet been completed. On
August 5, 2009, Enforcement announced the creation of an Office of Market
Intelligence. The Office of Market Intelligence will be Enforcement’s liaison to the
Agency’s Tip, Complaint and Referral (TCR) process and system which is
responsible for the collection, analysis, risk-weighing, triage, referral and
monitoring of the hundreds of thousands of tips, complaints and referrals that the
Commission receives each year. By analyzing each tip according to internally-
developed risk criteria and making connections between and among tips from
different sources, Enforcement hopes to be able to better focus its resources on
those tips with the greatest potential for uncovering wrongdoing. The Office of
Market Intelligence will also utilize the expertise of the Agency’s other Divisions
and newly created specialized units within Enforcement to help analyze the tips
and identify wrongdoing.

While the SEC has begun the process of developing policies and procedures to
improve the manner in which they evaluate tips and complaints, these
procedures, when finalized, need to be tested to ensure they operate effectively.


        Recommendation 4:

        Enforcement should establish guidance to require that all complaints that
        appear on the surface to be credible and compelling be probed further by
        in-depth interviews with the sources to assess the complaints validity and
        to determine what issues need to be investigated. Such guidance should
        also require that staff obtain all relevant documentation related to such
        complaints.

        Recommendation 5:

        Enforcement should provide training to staff to ensure they are aware of
        the guidelines contained in Section 3.2.5 of the Enforcement Manual and
        Title 17 of the Code of Federal Regulations, Section 202.10 for obtaining
        information from media sources.



Program Improvements Needed Within the Division of Enforcement      September 29, 2009
Report No. 467
                                             Page 6
        Recommendation 6:

        Enforcement should annually review and test the effectiveness of its
        policies and procedures with regard to its new tip and complaint handling
        system. Enforcement should also modify these policies and procedures,
        where needed, to ensure adherence and adequacy.


Finding 3: Enforcement Staff Assigned to
Investigate the Madoff Complaint Were
Inexperienced in Investigating Ponzi Schemes
        We found that the Enforcement staff assigned to the Madoff
        investigation team were inexperienced in investigating Ponzi
        schemes.

As a result of information from Markopolos received by NERO in 2005,
Enforcement initiated an investigation into Madoff. The investigation was
assigned by an Associate Director for Enforcement to a team of individuals
(Assistant Director for Enforcement, Branch Chief, and Staff Attorney) that had
virtually no experience in investigating Ponzi schemes.

The Staff Attorney, who had established a reputation for being smart and hard-
working, had not been the lead Staff Attorney on any investigation and had been
involved in very few investigations overall. Additionally, she had no experience
investigating Ponzi schemes. Also, her supervisors, the Assistant Director and
Branch Chief, testified that they also had no, or limited experience investigating a
Ponzi scheme. There were also questions about the level of planning that was
conducted by the Enforcement team for the Madoff investigation. This lack of
experience and planning had consequences for the investigation they conducted
of Madoff.

This situation illustrates the need for Enforcement to ensure that investigations
are assigned to a team where at least one individual on the team has specific
and sufficient knowledge of the subject matter and the team has access to at
least one additional individual who also has such expertise or knowledge.
Additionally, Enforcement should require planning memoranda to be prepared
and approved by management during investigations which outline the steps to be
taken to complete the investigation, identify other offices and or particular
individuals with requisite expertise that should be consulted during the
investigation, and identify staffing resources needed and estimated timeframes to
complete the work.


Program Improvements Needed Within the Division of Enforcement      September 29, 2009
Report No. 467
                                             Page 7
In response to a June 2009 OIG survey of management effectiveness in
Enforcement, many Enforcement staff expressed that they would like to see the
idea of specialization introduced and one respondent commented that he is
usually halfway through a new investigation before he has a clue about “what he
should be doing or looking for.” Another proponent of specialization commented
that “…we need to be able to focus our efforts more strategically….” Still others
expressed that they thought specialization was a bad idea as many times until
you get into an investigation you do not know what statute has been violated or if
more than one statute has been violated. Others pointed out that it would make
their positions redundant and boring.

Enforcement advised the OIG that they plan to introduce the creation of national
specialized units dedicated to particular highly specialized and complex areas of
securities laws. An intended outcome of these units is to allow staff to “get
smart” about certain products, markets, regulatory regimes, practices and
transactions. Additionally, it will allow investigators to be more efficient and less
likely to be misled by those who use complexity to conceal their misconduct.
Initially, there will be five specialized units including: Asset Management, Market
Abuse, Structured and New Products, Foreign Corrupt Practices Act, and
Municipal Securities and Public Pension Unit. Each specialized unit will be
headed by a Unit Chief, and will be staffed across the nation by people in the
Division who already have expertise in the topics, or have a desire to learn. They
will receive specialized and advanced training. Additionally, individuals with
practical market experience and other expertise, whether from private industry,
other SEC Divisions, or elsewhere, will be hired into these units.

Once Enforcement introduces these specialized units, they need to ensure that
they train staff on what resources and information is available and when and how
assistance from these units should be requested. Enforcement should also
periodically evaluate the operations of these units to ensure their efficiency and
effectiveness.

        Recommendation 7:

        Enforcement should put in place procedures to ensure that investigations
        are assigned to teams where at least one individual on the team has
        specific and sufficient knowledge of the subject matter (e.g. Ponzi
        schemes) and the team has access to at least one additional individual
        who also has such expertise or knowledge.

        Recommendation 8:

        Enforcement should train staff on what resources and information is
        available from the national specialized units and when and how assistance
        from these units should be requested.
Program Improvements Needed Within the Division of Enforcement       September 29, 2009
Report No. 467
                                             Page 8
        Recommendation 9:

        Enforcement should make it mandatory that planning memoranda be
        prepared during an investigation and that the plan includes a section
        identifying what type of expertise or assistance is needed from others
        within and outside the Commission. The plan should also be reviewed
        and approved by senior Enforcement personnel.

        Recommendation 10:

        Enforcement should require that after the planning memorandum is
        drafted, it is circulated to all team members assigned to the investigation,
        and all team members then should meet to discuss the investigation
        approach, methodology and any concerns team members wish to raise.


Finding 4: Enforcement Staff Investigating Madoff
Did Not Always Seek Assistance from Other
Offices and Divisions As Needed
        We found that Enforcement staff did not always seek
        assistance from other divisions and offices as needed during
        its investigation of Madoff.

Although the Enforcement staff had difficulty understanding some aspects of
Madoff’s operations, including his purported trading overseas, they did not
sufficiently consult with other divisions and offices within the SEC. Specifically,
Enforcement did not consult with the SEC’s Division of Trading and Markets for
assistance in understanding issues relating to broker-dealer operations.
Similarly, upon learning of Madoff’s purported trading with European
counterparties, the staff did not seek assistance from the Office of International
Affairs (OIA) for help in investigating this aspect of Madoff’s operations. The
Enforcement staff expressed concern that external offices were often to slow in
providing assistance to them.

A June 2009 OIG survey regarding management effectiveness within
Enforcement indicates that a certain percentage of the Enforcement staff did not
feel they were receiving adequate support from offices and divisions outside of
Enforcement. Our survey polled Enforcement staff on whether they felt they
received adequate support from external offices and divisions when requested.
Out of 759 respondents to this question, 66 percent agreed that they received
adequate support. However, 24 percent (180 respondents) disagreed that they
received adequate support. The remainder said that the question was not
applicable to their jobs. Of those respondents that disagreed, many provided
Program Improvements Needed Within the Division of Enforcement       September 29, 2009
Report No. 467
                                             Page 9
written comments expressing their concerns over the difficulty in getting timely
guidance or information from other divisions and offices. We selected a
representative sample of those comments and have provided them below:

        External offices and divisions should be able to advise in
        their respective areas of expertise. They generally do
        cooperate and provide helpful and useful responses, albeit
        through a cumbersome and time consuming process. The
        current memo circulation process effectively gives these
        offices and divisions a veto power over our work, which I
        think is both inappropriate and inconsistent with our mission
        of investor protection. If these offices and divisions were
        given an opportunity to comment, in a much shorter time
        frame, without the authority to withhold an unneeded
        approval, our mission, and investors generally would be
        better served.

        Other Divisions typically take far too long to respond to our
        requests for guidance or information. For example, I sought
        guidance from an office within Market Reg over 3 months
        ago and did not get a response until two weeks ago and that
        only came after leaving numerous phone messages, e-mails
        and even standing outside of the relevant person's office.
        Some Divisions are better than others. It depends on the
        group and the people involved but overall it is too slow and
        Enforcement management typically does not want to make
        decisions without the relevant responses from the other
        offices so it slows the entire process down and frustrates the
        process.

        Historically - no. During Chairman Cox's tenure, the other
        divisions were not supportive of the Division of Enforcement.
        Throughout his tenure, the other divisions took on an
        adversarial role towards Enforcement and used the
        comment process on memoranda to slow down
        recommendations and prevent them from reaching the
        Commission for decision. I had one high-profile matter that
        was 18 months in the comment process with repeated
        rounds of comments from two external divisions. The case
        was not allowed to go to the Commission for that time and
        aged badly.

Despite an individual’s personal perception of whether seeking out assistance
from other offices would be helpful or take too long, Enforcement staff should

Program Improvements Needed Within the Division of Enforcement      September 29, 2009
Report No. 467
                                            Page 10
work on establishing more effective relationships with other divisions and offices
and ensure they are consulted on matters within their areas of expertise.

In a August 5, 2009 Memorandum to all Enforcement staff regarding the recent
approval of delegated authority for formal orders, Enforcement management
emphasized the importance of consulting with other applicable Divisions/Offices
at the onset of an investigation and at appropriate times thereafter to ensure that
Enforcement does not miss significant legal or policy issues. During the piloting
of this new delegated authority, Enforcement will need to show that they can
successfully tap into the expertise of other Commission Divisions and Offices
without these parties having a formal role in reviewing many formal order
requests.

Enforcement has also included in its newly drafted streamlining guidance for
action memos a requirement that all action memos be circulated to other
Divisions no later than eight weeks following completion of the initial draft of the
action memo by the assigned staff member, with more routine or non-
controversial matters being circulated within four weeks after the initial draft is
prepared. In basic cases, an action memo will be required to be circulated within
two weeks. Like the formal order process, the action memo process will rely on
Enforcement staff to reach out to appropriate Divisions and Offices at the onset
of the investigation (and at key decision making points thereafter) so that
important issues are not identified for the first time when the action memo
circulates. Relatedly, the draft streamlining guidance states that Enforcement
contemplates that staff in other Divisions and Offices will escalate questions
raised during an investigation to senior officers with decision-making authority so
that Enforcement can rely on Division guidance in shaping the investigation and
the subsequent recommendations in the action memo.

As effective information sharing is critical to the Enforcement Staff being able to
adequately perform their functions, Enforcement will need to evaluate adherence
to newly drafted policies and procedures on a periodic basis to ensure they are
operating as intended. This would include assessing whether Enforcement is
obtaining adequate and timely assistance and support from outside offices and
ensuring that junior-level attorneys are supported in their efforts to obtain such
assistance. To help identify potential problems in this area, Enforcement should
implement procedures that require junior-level attorneys to report problems
involving obtaining assistance from outside offices to senior-level management.

        Recommendation 11:

        Enforcement should establish procedures so that junior-level Enforcement
        attorneys who are having difficulty with obtaining timely assistance from
        outside offices are able to escalate their concerns to senior-level
        management within Enforcement.
Program Improvements Needed Within the Division of Enforcement      September 29, 2009
Report No. 467
                                            Page 11
        Recommendation 12:

        Enforcement should conduct periodic internal reviews of any newly
        implemented policies and procedures related to information sharing with
        Divisions and Offices outside of Enforcement to ensure they are operating
        efficiently and effectively and necessary changes are made.


Finding 5: The Madoff Investigation Suffered
From a Lack of Supervision
        We found that in addition to a lack of experience with
        investigating Ponzi schemes, the Madoff investigation
        suffered from a lack of supervision.

The OIG found that there were questions about the level of supervision provided
to the staff attorney on the Madoff Enforcement investigation with regard to
providing guidance in how to conduct the investigation. There were also
concerns expressed about the lack of resources available to the Enforcement
staff in connection with its Madoff investigation.

When reflecting on the SEC’s failure to uncover Madoff’s Ponzi scheme, the
Assistant Director commented that one problem was the administrative burdens
that occupied much of the Branch Chief’s time. The Assistant Director explained:

         . . . she [the Branch Chief] had inherited a branch where
        everybody had left and left these old cases in shambles, and
        you had to go back to the court records, pulling all these
        court files, and recreating files to close them…Then you had
        to have six month memos on cases, whether or not you
        should keep them open, memos to write. The joke that we
        had in the office was that you had to write a memo to get
        permission to write a memo. You know, a lot of this was to
        make the performance measurable, which is great, and it
        should be measurable, but you have to provide people the
        resources to do it.

We also found in response to the June 2009 OIG Enforcement survey that
Enforcement staff had concerns about lack of resources and the resulting
administrative burdens they had to perform. More specifically, we surveyed
Enforcement staff regarding their thoughts on resources by asking “Do you have
adequate resources to successfully perform your job?” Out of 776 respondents
to this question, 54 percent stated they did not have adequate resources to
successfully perform their job. Many of the Enforcement staff cited the lack of
Program Improvements Needed Within the Division of Enforcement    September 29, 2009
Report No. 467
                                            Page 12
support resources (e.g., secretaries, paralegals and document clerks) as a major
problem with investigations. Many stated that they spend a considerable amount
of time copying, scanning files, faxing documents, and preparing cases for
closing instead of reviewing and analyzing evidence, and paying attention to
whether cases further the division’s mission in the best ways.

Enforcement has recently taken actions to begin to address concerns related to
routine monitoring of Enforcement cases and the hiring of additional support
staff. Enforcement provided the OIG a memorandum drafted by its newly
created Management Advisory Group to show that they intend to implement a
requirement that management conduct quarterly case reviews using data from
Enforcement’s case management system (HUB). The reviews would target
certain types of investigations (e.g. aged and inactive investigations, Top Ten,
etc.) with the objective of moving the investigations toward resolution. The case
reviews will be at the Associate/Office Head level. Also, to the extent the
periodic case reviews identify critical action items for specific cases, the action
items will be required to be documented in writing for effective follow-up.

While quarterly case reviews will help ensure periodic involvement by upper
levels of management, they do not replace the need for effective continuous
monitoring of cases by an investigator’s immediate supervisor.

With regard to adding additional support staff resources, the Director of
Enforcement recently stated in a speech before the New York City Bar that
Enforcement has committed to more than triple the current number of full-time
paralegals and support personnel in the Division. Additionally, Enforcement has
taken the necessary steps to identify and justify in its recent budget request the
number and type of support staff positions needed.

        Recommendation 13:

        Enforcement should require that the planning memorandum and
        associated scope, methodology and timeframes be routinely reviewed by
        an investigator’s immediate supervisor to ensure investigations remain on
        track and determine whether adjustments in scope, etc. are necessary.

        Recommendation 14:

        Enforcement should ensure that sufficient resources, both supervisory and
        support, are dedicated to investigations upfront to provide for adequate
        and thorough supervision of cases and effective handling of the
        investigations.



Program Improvements Needed Within the Division of Enforcement      September 29, 2009
Report No. 467
                                            Page 13
Finding 6: Enforcement Staff Failed to Verify
Information Provided By Madoff with
Independent Sources
        We found that the Enforcement staff working on the Madoff
        investigation failed to verify information provided by Madoff
        through the use of independent third-party sources.

In conducting an investigation of the allegation that Madoff was operating a Ponzi
scheme, it would have been critical to verify Madoff’s purported trading with
independent third-parties such as the Financial Industry Regulatory Authority
(FINRA), Chicago Board Options Exchange (CBOE), and/or the Depository Trust
Company (DTC). Yet, we found that the Enforcement staff conducting the
Madoff investigation failed to sufficiently and adequately follow up with
independent third-parties in order to verify whether Madoff actually engaged in
trading.

Particularly in an investigation of fraud, it is very important to verify
representations made by the individual or firm being investigated. In an
investigation of a possible Ponzi scheme, independent third-party verification is a
critical component of conducting a thorough and comprehensive investigation

        Recommendation 15:

        Enforcement should put in place policies and procedures or training
        mechanisms to ensure staff have an understanding of what types of
        information should be validated during investigations with independent
        parties such as the Financial Industry Regulatory Authority, Depository
        Trust Company, and Chicago Board Options Exchange.


Finding 7: Enforcement Staff Did Not
Adequately Evaluate Additional Information
Received by the SEC While the Madoff
Investigation Was Inactive Pending Official
Closure
        We found that Enforcement failed to adequately evaluate
        additional troubling information received by the SEC after
        Madoff agreed to register as an investment advisor in August

Program Improvements Needed Within the Division of Enforcement     September 29, 2009
Report No. 467
                                            Page 14
        2006, but before the case was officially closed in January
        2008.

In June 2007, Markopolos e-mailed the Branch Chief on the Enforcement Madoff
investigation stating that he had attached some very troubling documents that
showed the Madoff fraud scheme was getting even more brazen. Additionally,
the e-mail stated that Madoff could not possibly be managing the billions in his
strategy that he claimed.

Despite the additional information, we found no documentation to show that any
analysis was done or contact was made with Markopolos by the Enforcement
staff to follow up on the e-mail or attached documents. The Branch Chief
testified that she did not recall whether the e-mail attachments were given
significant analysis. Further, the Staff Attorney opined that she did not believe the
e-mail provided any new information.

Similarly, the Enforcement staff received a letter regarding Madoff from an
anonymous source including allegations about Madoff’s investment firm. We
found that the Enforcement staff failed to appropriately analyze this letter
complaint as well.

This situation illustrates the need for Enforcement staff to thoroughly evaluate
complaints and tips and encourage additional information from complainants
even if an investigative matter is pending closure.

        Recommendation 16:

        Enforcement should include in its complaint handling guidance proper
        procedures for ensuring complaints received even if an investigation is
        pending closure, are properly vetted.


Finding 8: Enforcement Staff Did Not Timely
Complete Administrative Tasks Associated
with Opening and Closing the Madoff
Investigation
        We found that there were delays in completing
        administrative tasks related to opening a matter under
        inquiry (MUI) on Madoff, as well as closing the investigation.

In the OIG Madoff investigation, we found that there were delays in the
Enforcement staff opening a MUI in its Madoff investigation. According to the
Program Improvements Needed Within the Division of Enforcement       September 29, 2009
Report No. 467
                                            Page 15
SEC’s Enforcement Manual, the process of opening a MUI helps to ensure
efficient allocation of resources to investigations. The Assistant Director
acknowledged that one of the reasons why one should open a MUI immediately
is to ensure that if a complaint regarding the same entity or matter comes in to
another office within the SEC, that person can determine if there is already an
open investigation by searching the appropriate SEC database and can forward
the relevant information to that office.

We found that due to the delay in opening the MUI, the Enforcement staff
conducting the Madoff investigation never received an e-mail complaint regarding
Madoff, which would have been useful in connection with their investigation.

Similarly, we found that although the Madoff investigation was effectively
completed in August 2006, after Madoff agreed to register as an investment
advisor, the matter was not officially closed until January 2008 which was almost
18 months later. Enforcement staff commented that the substantial lag is not
uncommon due to the paperwork burden involved with closing cases.

Enforcement has begun to streamline processes related to the MUI process by
drafting an initiative to discontinue Deputy-level review when opening a routine
MUI. Instead when opening a MUI in Enforcement’s case activity tracking
system (CATS), staff will include a short narrative in the comments field
indicating the nature of the case and the geographic or other nexus to the
investigating office. The data is then pulled into the HUB system and the
headquarters Enforcement office will generate weekly reports to be provided to
Senior Officers showing MUI openings.

Similarly, Enforcement should also examine ways to streamline the case closing
process and devote adequate resources to do so.

        Recommendation 17:

        Enforcement should conduct periodic internal reviews to ensure that MUIs
        are opened in accordance with any newly developed Commission
        guidance and examine ways to streamline the case closing process.
        Enforcement should also ensure staff have adequate time in which to
        complete these types of administrative tasks.




Program Improvements Needed Within the Division of Enforcement     September 29, 2009
Report No. 467
                                            Page 16
Finding 9: Other Opportunities for
Programmatic Improvements within
Enforcement
While not directly related to the Madoff investigation, we identified through a June
2009 OIG survey of management effectiveness in Enforcement, other areas
where opportunities exist for making programmatic improvements within
Enforcement, including: (1) ensuring staff are periodically reminded of their
responsibilities regarding impartiality in the performance of their duties,
(2) enhancing case handling processes, (3) encouraging groups within
Enforcement to work more cohesively with one another, and (4) clearly
establishing and communicating program priorities. In our survey results relating
to these particular matters, we received a large amount of detailed comments by
Enforcement staff expressing concern in response to these survey questions.
We believe that the considerable number and detailed nature of comments on
these and other issues demonstrates the significance of these matters to survey
respondents within Enforcement. Addressing these areas of concern will help
Enforcement to more effectively achieve its program goals.


Finding 9A: Enforcement Staff Are Not Always
Aware of Where to Find Information Regarding
Impartiality and a Troubling Number Have Been In
Situations They Felt Lacked Impartiality
        While the majority of Enforcement staff stated that they have
        not known of or been involved in a situation where they felt
        there was a lack of impartiality, a troubling number of
        Enforcement staff stated that they felt they had been in a
        situation where there was a lack of impartiality. Additionally,
        a large percentage of Enforcement staff stated that they did
        not know where to find information regarding impartiality in
        the performance of official duties (e.g., improper preferential
        treatment and external influences).

Our survey polled respondents on three questions regarding impartiality in order
to determine if staff knew where to find information on impartiality in the
performance of their official duties, whether staff had ever been in a situation
where they felt there was a lack of impartiality, and whether staff believed that
management promptly and sufficiently addressed situations involving lack of

Program Improvements Needed Within the Division of Enforcement       September 29, 2009
Report No. 467
                                            Page 17
impartiality. The questions and response percentages for each answer are
depicted below:

Q1). Do you know where to find information regarding impartiality in the
performance of official duties?

                             Total
   Yes          No        Respondents
   447          302           749
  59.7%        40.3%

Q2). Do you know of or have you ever been involved in a situation where you felt
there was lack of impartiality or the appearance of lack of impartiality in
performance of your official duties? For example, preferential treatment toward
the opposing lawyer who once worked at the Commission, improper external
influences, etc.

                              Total
   Yes          No         Respondents
    99          653            752
  13.2%        86.8%


Q3). Do you believe that the Division of Enforcement's management promptly
and sufficiently addresses situations involving the lack of impartiality or improper
influence?

                             Don’t          Total
   Yes           No          Know        Respondents
   191           60           508            759
  25.2%         7.9%         66.9%

The survey found that while 60 percent of respondents (447) indicated they knew
where to find information regarding impartiality, 40 percent of respondents (302)
do not know where to find such information. Also, while it is a positive sign that
only 13 percent of respondents (100) have been or felt that they had been in a
situation involving the lack of impartiality, any situation where there may have
been a lack of impartiality is a cause for concern.

The survey also found that while 67 percent of respondents did not know if
management promptly and sufficiently addressed situations involving the lack of
impartiality, 25 percent of respondents thought that management did adequately
address these situations.



Program Improvements Needed Within the Division of Enforcement       September 29, 2009
Report No. 467
                                            Page 18
Recommendation 18:

Enforcement should put in place a process to periodically remind staff of their
responsibilities regarding impartiality in the performance of official duties and
instruct staff where they can find additional information regarding impartiality.


Finding 9B: Program Priorities Are Not
Always Clearly Established and
Communicated to Enforcement Staff
        While the majority of Enforcement staff believes that
        program     priorities are   clearly  established  and
        communicated, a large percentage expressed concern over
        workload priorities.

Our survey polled respondents on five questions regarding communication of
workload priorities and alignment of priorities with the performance goals and
measures in the SEC’s Performance and Accountability Report (PAR) and
Enforcement’s mission to protect investors and the markets by investigating
potential federal securities law violations and litigating the SEC’s enforcement
actions. The goal was to determine if management had clearly established and
communicated program priorities and that those priorities aligned with
Enforcement’s mission and strategic goals.

The survey found that out of 795 respondents, 59 percent agreed that
Enforcement clearly communicated its workload priorities while 41 percent
disagreed. Additionally, out of 780 respondents, 57 percent agreed that
management provides staff adequate guidance on how to achieve program
priorities, while 43 percent disagreed that staff was provided adequate guidance.
Further, more than 50 percent of respondents (420) were not familiar with the
performance goals and measures in the SEC’s performance and accountability
report.

There was a widespread feeling among the respondents (81 percent) that
Enforcement’s workload priorities aligned with its mission to protect investors and
the markets by investigating potential federal securities law violations and
litigating the SEC’s enforcement actions.

While 59 percent of respondents agreed that Enforcement program priorities
were clearly communicated, 18 percent of respondents strongly disagreed that
Enforcement workload priorities were clearly communicated to staff and many
provided detailed and specific comments explaining their concerns. We selected

Program Improvements Needed Within the Division of Enforcement       September 29, 2009
Report No. 467
                                            Page 19
a sample of those comments to illustrate common concerns and have provided
them below:

        Overall I find that workload priorities are not communicated
        to the staff in a clear and concise manner. Moreover, such
        priorities are overall not communicated to the staff in a
        cohesive, unified fashion. Rather, priorities are
        communicated in a haphazard fashion by various managers
        at various times. Moreover, in my view the branch chief will
        often not have an understanding or knowledge of the
        priorities of his or her manager.

        Managers are extremely reluctant to set priorities because
        they're afraid they will focus on the wrong thing and be
        caught unprepared if someone senior to them asks about a
        case they haven't identified as a priority. As a result, staff
        are told to make every case a priority and it's extremely
        inefficient and unproductive.

        While management's workload priorities are laid out, they
        are subject to constant change from day to day. Staff
        Attorneys are not allowed to prioritize and manage their
        investigations as they see fit. Attorneys are constantly being
        pulled from one task to another at the whim of their
        manager. It makes the Staff Attorney's job exceedingly
        difficult. Part of the problem is that the Staff Attorney is
        supervised by multiple layers of management, all of whom
        have different priorities at different times and none of whom
        coordinate amongst themselves in order to set out an overall
        vision of how the attorney should proceed with all of their
        cases as a whole.

        Priorities change like the flavor of the day. Whatever's "hot
        in the news" becomes our priority. Often it feels like we're
        the dog chasing its own tail.

        Priorities of the enforcement division appear to change over
        time and that change does not seem to be rapidly
        communicated down the chain to line attorneys. At the
        current time, I do not have 100% confidence I could
        accurately identify with any specificity--i.e., beyond a general
        statement of a desire to see cases related to the financial
        meltdown--the types of cases enforcement management
        would like to see brought.

Program Improvements Needed Within the Division of Enforcement           September 29, 2009
Report No. 467
                                            Page 20
        There appears to be no prioritization of cases or workload.
        In addition, I have no idea who is required to review my work
        product or even which work product must be reviewed.
        Certain branch chiefs completely micromanage and do not
        allow any communication by Staff Attorneys with anyone
        external to the office (including even AUSA's) while others
        do not even want to see document requests before they go
        out. The same is true of assistants and associates.
        Management appears to get no direction or instruction on
        what their duties are as a supervisor. I have never even
        been in the same room as my associate - I'm not sure I
        would be recognized by sight. Considering the fact that I am
        the person most knowledgeable about my cases, it seems
        incredibly ill-advised that communication with individuals up
        the chain does not include the Staff Attorney. Sometimes I
        have an idea about how to proceed or difficulties that I
        believe we will encounter with our case. I provide the idea to
        my branch chief and I hear nothing back. I assume that
        whatever ideas or suggestions I make are completely
        ignored but I have no way of knowing one way or the other
        because I'm not included in conversations between the
        branch chief/assistant/associate.

        As an agency, priorities have been continuously ambiguous
        and ever-changing depending on the shifting winds in
        Washington politics and/or the make-up of the Commission.

        I'm not sure exactly what you mean by "workload priorities"
        but I can tell you that I don't know quite what is expected of
        me. Because there are no quantifiable metrics used to
        evaluate my effectiveness in my role, it is virtually impossible
        to communicate to me what is expected of me. Only vague
        generalizations can be expressed. What I do is, admittedly,
        very complicated, but measurements can be made. Even a
        simple directive such as, "you are expected to bring two
        insider trading cases and one market manipulation case to
        successful conclusion each year" would be an improvement.

These comments show that some Enforcement staff are concerned about
communication of information up and down the chain of command, constantly
changing workload priorities, and lack of clear expectations.




Program Improvements Needed Within the Division of Enforcement        September 29, 2009
Report No. 467
                                            Page 21
        Recommendation 19:

        Enforcement should establish or utilize an existing working group to
        analyze the OIG survey information regarding staff concerns over
        communication of program priorities and make recommended
        improvements to the Director of Enforcement.


Finding 9C: Case Handling Processes Could
Be Improved
        While the majority of the feedback received from
        Enforcement staff with regard to its case handling processes
        was positive, a considerable number of staff expressed
        concerns in this area.

Our survey polled respondents on the following seven questions related to
Enforcement’s case selection process, assigning resources to cases and
rewarding employees for their work on cases to determine their satisfaction with
current processes. The relevant questions and answers are provided below.

Q1). Do you believe that Enforcement management has an effective process in
place for selecting cases such as determining the number of high profile cases it
will take on, versus cases that are less significant (i.e. balancing the workload)?

 Strongly      Somewhat       Somewhat        Strongly      N/A to      Total
 Disagree       Disagree        Agree          Agree        my job   Respondents
   107            202            188             45          196         738
  14.5%          27.4%          25.5%           6.1%        26.6%

Q2). Do you believe the Division of Enforcement selects cases based on
appropriate risk factors?

 Strongly      Somewhat       Somewhat        Strongly      N/A to      Total
 Disagree       Disagree        Agree          Agree        my job   Respondents
    41            142            271             67          204         725
   5.7%          19.6%          37.4%           9.2%        28.1%




Program Improvements Needed Within the Division of Enforcement             September 29, 2009
Report No. 467
                                            Page 22
Q3). Do you believe that Enforcement staff are improperly influenced or directed
by Division management or supervisors to take on certain or specific types of
cases?

 Strongly      Somewhat       Somewhat        Strongly      N/A to      Total
 Disagree       Disagree        Agree          Agree        my job   Respondents
   255            162            127             50          158         752
  33.9%          21.5%          16.9%           6.6%        21.0%

Q4). Do you believe that Enforcement management assigns cases fairly among
staff such as high visibility cases?
 Strongly      Somewhat       Somewhat        Strongly      N/A to      Total
 Disagree       Disagree        Agree          Agree        my job   Respondents
   114            128            220            123          158         743
  15.3%          17.2%          29.6%          16.6%        21.3%

Q5). Do you believe that Enforcement assigns cases to staff based on an
individual's skills and experience?

 Strongly      Somewhat       Somewhat        Strongly      N/A to      Total
 Disagree       Disagree        Agree          Agree        my job   Respondents
    68            118            283            144          130         743
   9.2%          15.9%          38.1%          19.4%        17.5%

Q6). Do you believe that the Division of Enforcement's management allocates
resources primarily with the goal of maximizing investor protection?

 Strongly      Somewhat       Somewhat        Strongly        Total
 Disagree       Disagree        Agree          Agree       Respondents
    65            139            357            165            726
   9.0%          19.1%          49.2%          22.7%

Q7). Do you believe there is a culture within Enforcement's management that
rewards the "quantity" of cases versus the "quality" of cases that its staff
undertakes? For example staff that complete work on several smaller, simple
cases (quantity), are recognized or rewarded more often than staff who work on
larger cases that are complex and lengthy (quality).

  Strongly      Somewhat        Somewhat       Strongly     N/A to      Total
  Disagree       Disagree         Agree         Agree       my job   Respondents
    138            182             191           119         119         749
   18.4%          24.3%           25.5%         15.9%       15.9%

The survey found that a troubling number of Enforcement staff dislike the current
case selection processes. Specifically, 42 percent of respondents (309) do not

Program Improvements Needed Within the Division of Enforcement             September 29, 2009
Report No. 467
                                            Page 23
believe that Enforcement has an effective process in place for selecting cases,
25 percent of respondents (183) do not believe that Enforcement selects cases
based on appropriate risk factors, and 24 percent of respondents (177) felt that
cases were improperly influenced or directed by Enforcement management. To
better illustrate concerns expressed by staff related to case selection processing,
the OIG selected a sample of the written comments provided by Enforcement
staff and have provided them below.

        Everyone is afraid of making a mistake, so they take on
        every case, then make every case a priority and, a year
        later, when the dust settles, they have to close the cases
        they never looked at on the grounds that they don't have
        sufficient resources. No real decision-making is done at the
        outset.

        There is no process for anything. And there is no review to
        make sure that the staff's workload is balanced. There are
        staff attorneys who are completely swamped (who are in a
        busy line) while there are other staff attorneys that are
        completely slow (who are in a slow line). Staff attorneys are
        not shared across reporting lines, for no apparent reason. I
        suspect it has something to do with "points" that individual
        members of management are accruing for their own review
        purposes.

         . . . . we are not "looking" at risk factors and selecting cases
        based upon them (to my knowledge). I think we should.
        Where are the top three areas the SEC sees the next big
        fraud coming from? I have no idea, but I should. Someone
        in enforcement should be thinking about this and instructing
        the staff accordingly.

        There is no process. Often years of investigation go down
        the tube because a litigator doesn't like the case. Why
        couldn't we know that a few YEARS earlier.

We did find that 46 percent of respondents (343) believe that management
assigns cases fairly among staff, such as high visibility cases. In addition, 58
percent of respondents (427) believe that cases are assigned based on an
individual’s skills and experience. Further, 72 percent of respondents (522)
believe that Enforcement management allocates resources primarily with the
goal of maximizing investor protection.

With respect to rewarding employees for their work on cases, 41 percent of
respondents (310) of Enforcement staff believe that management rewards
Program Improvements Needed Within the Division of Enforcement          September 29, 2009
Report No. 467
                                            Page 24
employees for the “quantity” of cases they perform versus the “quality” of cases
that staff undertakes.

        Recommendation 20:

        Enforcement should establish or utilize an existing working group to
        analyze the OIG survey information regarding staff concerns regarding
        case handling procedures within Enforcement and make recommended
        improvements to the Director of Enforcement.


Finding 9D: Enforcement Staff Expressed
Concern Over Working Relationships within
the Division
        In addition to concerns over obtaining assistance from
        outside divisions and offices, Enforcement staff does not
        always believe that different groups within the Division work
        together effectively.

The survey asked Enforcement staff whether they believed that different groups
worked effectively with one another within the Division. The survey found that
out of 736 respondents to this question, 61 percent of respondents (452) agreed
that groups work effectively with each other and 39 percent of respondents (284)
disagreed with the statement. Several members of Enforcement staff that
disagreed, provided comments explaining their concerns. We selected a sample
of those comments to illustrate common concerns and have provided them
below.

        Management does not understand the work of the
        examination groups in the office and rarely acknowledge the
        benefit to the program that could be obtained by working
        more closely with those groups, particularly on more timely
        market and other issues pertaining to regulated entities.
        They appear to arrogantly dismiss the greater expertise of
        the examination groups in certain critical market and
        regulatory issues that could be tapped to prevent serious
        market issues if there were a coordinated effort between the
        two sides of the office. Instead they compete with the exam
        staff to find leads on past violations and then ignore the
        ability of the exam staff to obtain information in a timely
        manner in order to keep the cases and, I guess the
        "rewards" to themselves. Moreover, the Enf Associates
        ignore the referrals of the examination program. As a result,
Program Improvements Needed Within the Division of Enforcement     September 29, 2009
Report No. 467
                                            Page 25
        the Enf program is almost entirely reactive to problems that
        may arise, when the whole program could take a proactive
        approach by relying on and supporting its proactive divisions
        on the examination side of the office.

        There should be better coordination with the accounting and
        market surveillance staffs and the investigative and litigation
        staff. These different sections do not always work together
        well.

        Our current severely hierarchical structure tends to create
        fiefdoms -- managers tend to want to control everything on
        their turf, including outside contacts and consultations.
        Veteran staffers cross lines to consult when necessary, but
        do so quietly.

        At least in OIE, I feel that we are segregated out from the
        rest of Enforcement. We don't often work with other groups
        in Enforcement. However, I think we should, especially
        given that we currently investigate all types of cases, cases
        that require a certain level of knowledge and experience not
        readily available to us within the group.

        Turf battles between regional office and Home Office.
        Previously, senior leadership in the Division routinely favored
        staff in the Home Office and did not effectively manage such
        conflicts.

        We could do a lot more to put accountants and attorneys on
        equal footing in order to allow the expertise of the staff to be
        put to full use. The kind of specialized knowledge we have
        been lacking on some high-profile failures of ours can be
        obtained through empowering our accounting and market
        surveillance staff to take a greater role in investigations and
        deciding their course.

        The trial unit has always had problems working with the
        investigative side. Some attorneys get better than others but
        still there are tensions between groups. Management has
        made no effort to correct this.

        I believe that different branches are totally separate entities
        and the Division of Enforcement does almost nothing to
        foster teamwork between different groups.

Program Improvements Needed Within the Division of Enforcement            September 29, 2009
Report No. 467
                                            Page 26
        There is almost no cross-group interaction, but again, this
        should change with the new specialization program. Right
        now it's very unusual for the staff of one AD group to know
        that a different AD group has a similar case, or has faced a
        similar issue, let alone knowing that someone in a different
        region has done so. Once we have a national program of
        specialized groups, sharing information and working together
        should come much more regularly and naturally.

        Dealing with other enforcement groups is often a hassle,
        because every office is primarily motivated to guard their
        own territory and make sure the other office isn't trying to
        poach the good cases. That said, informal, relationship
        based contacts with staff in other offices about particular
        matters is frequently helpful and rewarding.

        Sometimes I am discouraged from working with other groups
        because it is viewed as relinquishing control of "our case.”

The survey results and comments demonstrate that Enforcement can do more to
foster coordination and cooperation among the different working groups within
the Division.

        Recommendation 21:

        Enforcement should establish or utilize an existing working group to
        analyze the OIG survey information regarding staff concerns over working
        relationships within Enforcement and make recommended improvements
        to the Director of Enforcement.




Program Improvements Needed Within the Division of Enforcement         September 29, 2009
Report No. 467
                                            Page 27
                                                                          Appendix I


                                       Acronyms

BDO                                      Boston District Office
CATS                                     Case Activity Tracking System
CBOE                                     Chicago Board Options Exchange
DTC                                      Depository Trust Company
Enforcement                              Division of Enforcement
FINRA                                    Financial Industry Regulator Authority
HUB                                      Case Management System
Madoff                                   Bernard L. Madoff
MUI                                      Matter Under Inquiry
NERO                                     New York Regional Office
PAR                                      Performance and Accountability Report
OIA                                      Office of International Affairs
OIG                                      Office of Inspector General
SEC or Commission                        U.S. Securities and Exchange Commission




Program Improvements Needed Within the Division of Enforcement        September 29, 2009
Report No. 467
                                            Page 28
                                                                     Appendix II


                         Scope and Methodology

This review was not conducted in accordance with the government auditing
standards.

Scope. We examined Enforcement program activities covering the period Fiscal
Year 2000-2009. This included reviewing information and documentation related
to an OIG investigation of Madoff and his firm and the reasons allegations were
not found to be credible by the Commission and the results of a survey
questionnaire launched by the OIG in June 2009 that was sent to the Division of
Enforcement staff and management to obtain information regarding management
effectiveness.

Methodology. In order address the audit objective, we analyzed information
from OIG Investigative Report No. 509, Investigation of Failure of the SEC to
Uncover Bernard Madoff’s Ponzi Scheme, to identify systemic issues that would
prevent the Division of Enforcement from accomplishing its mission to enforce
the securities law and protect investors.

We also developed a 50 question survey consisting of 42 multiple choice
questions and 8 open-ended questions to which respondents could write a
response. The questionnaire was designed to obtain feedback from
Enforcement staff on topics such as allocation of resources, performance
measurement, case management procedures, communication, adequacy of
policies and procedures, employee morale, and management efficiency and
effectiveness. The survey was launched in June 2009 to Enforcement staff in
headquarters and the Commission’s eleven regional offices. Of the 1,242 staff
that were emailed questionnaires, 838 respondents (67%) completed some
portion of the survey and 750 respondents (60%) completed the entire survey.
The survey results were summarized in different formats including spreadsheets
and a database format to show the response rate for all questions in the survey.
We also conducted phone interviews with Enforcement staff that asked to be
contacted regarding their survey responses.

Prior OIG Coverage. The OIG previously conducted an investigation into
Madoff and his firm and the reasons allegations were not found to be credible by
the Commission and issued OIG Investigative Report No. 509, Investigation of
Failure of the SEC to Uncover Bernard Madoff’s Ponzi Scheme.



Program Improvements Needed Within the Division of Enforcement    September 29, 2009
Report No. 467
                                            Page 29
                                                                       Appendix III


                        List of Recommendations

Recommendation 1:

Enforcement should establish formal guidance for evaluating various types of
complaints (e.g., Ponzi schemes) and train appropriate staff on the use of the
guidance. The guidance should address the necessary steps and key
information required to be collected when conducting preliminary inquiries of
various types of complaints, specify what information should be documented, and
list whom should be consulted in other offices within the SEC with relevant
expertise in various subject matters and other pertinent data.

Recommendation 2:

Enforcement should ensure the SEC’s tip and complaint handling system
provides for data capture of relevant information relating to the vetting process to
document why a complaint was or was not acted upon and who made that
determination.

Recommendation 3:

Enforcement should require tips and complaints to be reviewed by at least two
individuals experienced in the subject matter prior to deciding not to take further
action.

Recommendation 4:

Enforcement should establish guidance to require that all complaints that appear
on the surface to be credible and compelling be probed further by in-depth
interviews with the sources to assess the complaints validity and to determine
what issues need to be investigated. Such guidance should also require that
staff obtain all relevant documentation related to such complaints.

Recommendation 5:

Enforcement should provide training to staff to ensure they are aware of the
guidelines contained in Section 3.2.5 of the Enforcement Manual and Title 17 of
the Code of Federal Regulations, Section 202.10 for obtaining information from
media sources.

Program Improvements Needed Within the Division of Enforcement      September 29, 2009
Report No. 467
                                            Page 30
Recommendation 6:

Enforcement should annually review and test the effectiveness of its policies and
procedures with regard to its new tip and complaint handling system.
Enforcement should also modify these policies and procedures, where needed,
to ensure adherence and adequacy.

Recommendation 7:

Enforcement should put in place procedures to ensure that investigations are
assigned to teams where at least one individual on the team has specific and
sufficient knowledge of the subject matter (e.g. Ponzi schemes) and the team
has access to at least one additional individual who also has such expertise or
knowledge.

Recommendation 8:

Enforcement should train staff on what resources and information is available
from the national specialized units and when and how assistance from these
units should be requested.

Recommendation 9:

Enforcement should make it mandatory that planning memoranda be prepared
during an investigation and that the plan includes a section identifying what type
of expertise or assistance is needed from others within and outside the
Commission. The plan should also be reviewed and approved by senior
Enforcement personnel.

Recommendation 10:

Enforcement should require that after the planning memorandum is drafted, it is
circulated to all team members assigned to the investigation, and all team
members then should meet to discuss the investigation approach, methodology
and any concerns team members wish to raise.

Recommendation 11:

Enforcement should establish procedures so that junior-level Enforcement
attorneys who are having difficulty with obtaining timely assistance from outside
offices are able to escalate their concerns to senior-level management within
Enforcement.



Program Improvements Needed Within the Division of Enforcement     September 29, 2009
Report No. 467
                                            Page 31
Recommendation 12:

Enforcement should conduct periodic internal reviews of any newly implemented
policies and procedures related to information sharing with Divisions and Offices
outside of Enforcement to ensure they are operating efficiently and effectively
and necessary changes are made.

Recommendation 13:

Enforcement should require that the planning memorandum and associated
scope, methodology and timeframes be routinely reviewed by an investigator’s
immediate supervisor to ensure investigations remain on track and determine
whether adjustments in scope, etc. are necessary.

Recommendation 14:

Enforcement should ensure that sufficient resources, both supervisory and
support are dedicated to investigations upfront to provide for adequate and
thorough supervision of cases and effective handling of the investigations.

Recommendation 15:

Enforcement should put in place policies and procedures or training mechanisms
to ensure staff have an understanding of what types of information should be
validated during investigations with independent parties such as the Financial
Industry Regulatory Authority, Depository Trust Company, and Chicago Board
Options Exchange.

Recommendation 16:

Enforcement should include in its complaint handling guidance proper
procedures for ensuring complaints received even if an investigation is pending
closure, are properly vetted.

Recommendation 17:

Enforcement should conduct periodic internal reviews to ensure that MUIs are
opened in accordance with any newly developed Commission guidance and
examine ways to streamline the case closing process. Enforcement should also
ensure staff have adequate time in which to complete these types of
administrative tasks.




Program Improvements Needed Within the Division of Enforcement    September 29, 2009
Report No. 467
                                            Page 32
Recommendation 18:

Enforcement should put in place a process to periodically remind staff of their
responsibilities regarding impartiality in the performance of official duties and
instruct staff where they can find additional information regarding impartiality.

Recommendation 19:

Enforcement should establish or utilize an existing working group to analyze the
OIG survey information regarding staff concerns over communication of program
priorities and make recommended improvements to the Director of Enforcement.

Recommendation 20:

Enforcement should establish or utilize an existing working group to analyze the
OIG survey information regarding staff concerns regarding case handling
procedures within Enforcement and make recommended improvements to the
Director of Enforcement.

Recommendation 21:

Enforcement should establish or utilize an existing working group to analyze the
OIG survey information regarding staff concerns over working relationships within
Enforcement and make recommended improvements to the Director of
Enforcement.




Program Improvements Needed Within the Division of Enforcement       September 29, 2009
Report No. 467
                                            Page 33
                                                                   Appendix IV


                         Management Comments




Program Improvements Needed Within the Division of Enforcement   September 29, 2009
Report No. 467
                                            Page 34
Program Improvements Needed Within the Division of Enforcement   September 29, 2009
Report No. 467
                                            Page 35
                                                                        Appendix V


      OIG Response to Management’s Comments
The Office of Inspector General (OIG) is pleased that the Division of Enforcement
(Enforcement) concurred with all 21 recommendations in this report. We believe
that these recommendations are crucial to ensuring that Enforcement is able to
conduct thorough and effective investigations in the future. As the OIG Report
entitled “Investigation of Failure of the SEC to Uncover Bernard Madoff’s Ponzi
Scheme” dated August 31, 2009 detailed, Enforcement received three versions
of a very specific complaint entitled “The World’s Largest Hedge Fund is a Fraud”
detailing approximately 30 red flags indicating that Bernard L. Madoff (Madoff)
was operating a Ponzi scheme. Moreover, on the first two occasions this
complaint was brought to Enforcement’s attention, no efforts were made to
conduct an investigation. While an investigation was eventually conducted,
Enforcement never really investigated the possibility of a Ponzi scheme.

We believe that the immediate implementation of these recommendations should
be Enforcement’s top priority. We are encouraged that Enforcement is
acknowledging that significant changes are necessary in its operations and that it
intends to implement all of our recommendations.

The mission of the SEC is to protect investors, maintain fair, orderly, and efficient
markets, and facilitate capital formation. Crucial to the SEC's effectiveness in all
areas is its enforcement authority. The public needs to be able to rely upon the
SEC to conduct thorough and comprehensive investigations where it is provided
detailed complaints outlining a potential fraud.

We believe that these recommendations would ensure a basic level of
competence in Enforcement investigations and can be fully implemented in short
order. The OIG plans to follow-up to ensure that all 21 recommendations are
implemented in full and report back to the Congress on the status of these
efforts. We also plan to conduct a follow-up audit to determine if the changes to
Enforcement’s operations are having the desired and appropriate effect.




Program Improvements Needed Within the Division of Enforcement       September 29, 2009
Report No. 467
                                            Page 36
                      Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Requests/Ideas)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. # 202-551-6061 Freedom of Information Act (FOIA)
Fax # 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at
      Commission, contact the Office of Inspector General at:

              Phone: 877.442.0854

              Web-Based Hotline Complaint Form:
              www.reportlineweb.com/sec_oig
